U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Yellen v. Confederated Tribes of the Chehalis Reservation, Nos. 20-543 & 20-544
(argued April 19, 2021)
Dear Mr. Harris:
This case, in which oral argument was held on April 19, 2021, concerns whether Alaska
Native Corporations (ANCs) are eligible to receive funds made available to tribal governments
under the Coronavirus Aid, Relief, and Economic Security Act (CARES Act). The federal
petitioner’s reply brief stated that in response to other pending litigation, the Department of the
Treasury was formulating a new allocation to tribal recipients that could result in lower payments
to ANCs. U.S. Reply Br. 23 n.3; see also Tr. of Oral Arg. 30 (stating that the Treasury Department
initially allocated “about 6 percent of this 8 billion dollar fund to the ANCs, which is about $530
million,” but that as a result of other litigation, “Treasury is currently in the process of
reconsidering the methodology” and “that could impact the amount of funds available to go to the
ANCs”).
The purpose of this letter is to inform the Court that on April 30, 2021, the Treasury
Department completed that process and determined a revised methodology. The Treasury
Department’s description of its revised methodology is attached. As that description explains,
ANCs would receive approximately $450 million under the revised methodology.
Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0543
YELLEN, JANET L., SECRETARY OF THE
TREASURY
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.

BRADLEY G. BLEDSOE DOWNES
2332 HOWLAND HILL ROAD
CRESCENT CITY, CA 95531
949-500-4092
BDOWNES@ELK-VALLEY.COM
LORI BRUNNER
QUINAULT OFFICE OF THE ATTORNEY
GENERAL
136 CUITAN STREET
TAHOLAH, WA 98587
360-276-8215
LBRUNER@QUINAULT.ORG
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
ERIC DAHLSTROM
ROTHSTEIN DONATELLI LLP
1501 W. FOUNTAINHEAD PARKWAY
SUITE 360
TEMPE,, AZ 85282
EDAHLSTROM@ROTHSTEINLAW.COM

NICOLE E. DUCHENEAUX
1404 FORT CROOK ROAD SOUTH
BELLEVUE, NE 68005
531-466-8792
NDUCHENEAUX@BIGFIRELAW.COM
JENNIFER BEAR EAGLE
PO BOX 1204
PINE RIDGE, SD 57770
605-867-2140
JENNIFERBE@OSTLEGAL.ORG
MELISSA ANN HOLYOAK
UTAH ATTORNEY GENERAL'S OFFICE
UTAH STATE CAPITOL COMPLEX
350 NORTH STATE STREET
SUITE 230
SALT LAKE CITY, UT 84114-2320
801-538-9600
MELISSAHOLY-OAK@AGUTAH.GOV
HYLAND HUNT
DEUTSCH HUNT PLLC
300 NEW JERSEY AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-868-6838
HHUNT@DEUTSCHHUNT.COM
RIYAZ A. KANJI
KANJI & KATZEN PLLC
303 DETROIT ST.
STE 400
ANN ARBOR , MI 48104
734-769-5400
RKANJI@KANJIKATZEN

JONATHAN W. KATCHEN
HOLLAND & HART LLP
1029 W. THIRD AVENUE
SUITE 550
ANCHORAGE, AK 99501
JWKATCHEN@HOLLANDHART.COM
ALLON KEDEM
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE. NW
WASHINGTON, DC 20001
202-942-6234
ALLON.KEDEM@ARNOLDPORTER.COM
NATALIE A. LANDRETH
NATIVE AMERICAN RIGHTS FUND
745 WEST 4TH AVENUE
SUITE 502
ANCHORAGE , AK 99501
907-276-0680
LANDRETH@NARF.ORG
907-276-2466(Fax)
JAMES H. LISTER
BIRCH, HORTON, BITTNER, & CHEROT, P.C.
1100 CONNECTICUT AVE., NW
1100 SUITE 825
WASHINGTON,, DC 20036
JLISTER@DC.BHB.COM
JEFFREY S RASMUSSEN
PATTERSON EARNHART REAL BIRD &
WILSON LLP
357 S. MCCASLIN BOULEVARD
SUITE 200
LOUISVILLE, CO 80027
303-926-5292
JRASMUSSEN@NATIVELAWGROUP.COM
303-926-5293(Fax)

ALEXANDER B. RITCHIE
16 SAN CARLOS AVENUE
PO BOX 40
SAN CARLOS, AZ 85550
928-475-3348
ALEX.RITCHIE@SCAT-NSN.GOV
MARGARET CROW ROSENFELD
FORMAN & ASSOCIATES
4340 REDWOOD HIGHWAY
SUITE E352
SAN RAFAEL, CA 94903
415-491-2310
MARGARET@GFORMANLAW.COM
415-491-2313(Fax)
COLETTE ROUTEL
MITCHELL HAMLINE SCHOOL OF LAW
875 SUMMIT AVENUE
SAINT PAUL, MN 55105-3076
COLETTE.ROUTEL@MITCHELLHAMLINE.ED
U
ALAN E. SCHOENFELD
WILMER CUTLER PICKERING HALE & DORR
LLP
7 WORLD TRADE CENTER
250 GREENWICH STREET
NEW YORK, NY 10007
212-937-7294
ALAN.SCHOENFELD@WILMERHALE.COM
KAIGHN SMITH, JR.
DRUMMOND WOODSUM
84 MARGINAL WAY
SUITE 600
PORTLAND, ME 04101-2480
207.772.3627
KSMITH@DWMLAW.COM

CHRISTINE V. WILLIAMS
OUTLOOK LAW LLC
1016 WEST 6TH AVENUE
SUITE 306
ANCHORAGE, AK 99501
907-258-2200
CHRISTINEWILLIAMS@OUTLOOKLAW.COM
LAURA WOLFF
ASSISTANT ATTORNEYS GENERAL
1031 WEST FOURTH AVENUE,
STE. 200
ANCHORAGE, AK 99501
907-269-5100
LAURA.WOLFF@ALASKA.GOV

20-0544
ALASKA NATIVE VILLAGE CORP. ASSN. INC., ET
AL.
CONFEDERATED TRIBES, ET AL.

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
NICOLE E. DUCHENEAUX
BIG FIRE LAW & POLICY GROUP, LLP
1404 FORT CROOK ROAD SOUTH
BELLEVUE, NE 68005
406-493-4693
NDUCHENEAUX@BIGFIRELAW.COM
RIYAZ A. KANJI
KANJI & KATZEN PLLC
303 DETROIT ST.
STE 400
ANN ARBOR , MI 48104
734-769-5400
RKANJI@KANJIKATZEN
ALLON KEDEM
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE. NW
WASHINGTON, DC 20001
202-942-6234
ALLON.KEDEM@ARNOLDPORTER.COM

JAMES H. LISTER
BIRCH, HORTON, BITTNER, & CHEROT, P.C.
1100 CONNECTICUT AVE., NW
1100 SUITE 825
WASHINGTON,, DC 20036
JLISTER@DC.BHB.COM
JEFFREY SCOTT RASMUSSEN
PATTERSON EARNHART REAL BIRD &
WILSON LLP
1900 PLAZA DRIVE
LOUISVILLE, CO 80027
303-926-5292
JRASMUSSEN@NATIVELAWGROUP.COM
MARGARET CROW ROSENFELD
FORMAN & ASSOCIATES
4340 REDWOOD HIGHWAY
SUITE E352
SAN RAFAEL, CA 94903
415-491-2310
MARGARET@GFORMANLAW.COM
415-491-2313(Fax)
COLETTE ROUTEL
MITCHELL HAMLINE SCHOOL OF LAW
875 SUMMIT AVENUE
SAINT PAUL, MN 55105-3076
COLETTE.ROUTEL@MITCHELLHAMLINE.ED
U
KAIGHN SMITH, JR.
DRUMMOND WOODSUM
84 MARGINAL WAY
SUITE 600
PORTLAND, ME 04101-2480
207.772.3627
KSMITH@DWMLAW.COM

CHRISTINE V. WILLIAMS
OUTLOOK LAW LLC
1016 WEST 6TH AVENUE
SUITE 306
ANCHORAGE, AK 99501
907-258-2200
CHRISTINEWILLIAMS@OUTLOOKLAW.COM
LAURA WOLFF
ASSISTANT ATTORNEYS GENERAL
1031 WEST FOURTH AVENUE,
STE. 200
ANCHORAGE, AK 99501
907-269-5100
LAURA.WOLFF@ALASKA.GOV

Coronavirus Relief Fund
Allocations to Tribal Governments
April 30, 2021
The Coronavirus Aid, Relief, and Economic Security Act (the “CARES Act”) established the Coronavirus
Relief Fund (“CRF”), reserved $8 billion from the CRF for payments to Tribal governments, and
provided that the allocation of payments to Tribal governments is to be determined by the Secretary of the
Treasury in consultation with the Secretary of the Interior and Tribes. 1 As discussed further below, and in
recognition of the recent federal court decisions addressing aspects of the methodology used to make
prior payments, Treasury has engaged in a process of reconsidering the impact of that methodology on
certain Tribes. In the course of that process, Treasury has determined to adopt a methodology pursuant to
which it will reallocate a portion of the remaining, unpaid funds reserved for Tribal governments.
The amount reserved for Tribal governments from the CRF is separate from the additional $20 billion
reserved for Tribal governments from the Coronavirus State Fiscal Recovery Fund established by section
9901 of the American Rescue Plan Act of 2021. 2 Those funds will be subject to a separate allocation to
be announced by Treasury in the coming days.
Previous allocation
The CARES Act provides that the Tribal allocation is to be “based on increased expenditures of each such
Tribal government (or a Tribally-owned entity of such Tribal government) relative to aggregate
expenditures in fiscal year 2019 by the Tribal government (or Tribally-owned entity)” and “determined in
such manner as the Secretary [of the Treasury] determines appropriate to ensure that all amounts” are
distributed to Tribal governments. 3
On May 5, 2020, Treasury adopted an allocation methodology pursuant to which 60% of the $8 billion
reserved for Tribal governments was allocated to Tribal governments based on population, specifically by
reference to the population of each Tribe’s formula area under the Department of Housing and Urban
Development (HUD) Indian Housing Block Grant (IHBG) program, with the remainder allocated in a
manner based on the number of employees of Tribal governments and Tribal enterprises and the 2019
expenditures of Tribal governments. Further information about these allocations was provided at the time
by Treasury. 4
Recent litigation
Three of the several Tribes that were assigned a population of zero, or a low population that approaches
zero, for their IHBG formula areas despite having substantial enrollment have challenged the populationbased disbursement of Treasury’s allocation methodology in federal court. Although these lawsuits have
not been finally resolved, the U.S. Court of Appeals for the D.C. Circuit found that at least one Tribe
assigned an IHBG formula area population of zero was likely to succeed in its claim that the prior

See section 601(c)(7) of the Social Security Act, as added by § 5001(a) of Division A of the CARES Act (42
U.S.C. § 801(c)(7).
2
Pub. L. No. 117-2 (March 11, 2021).
3
See 42 U.S.C. § 801(c)(7).
4
See Coronavirus Relief Fund Allocations to Tribal Governments (May 5, 2020), available at
https://home.treasury.gov/system/files/136/Coronavirus-Relief-Fund-Tribal-Allocation-Methodology.pdf;
Coronavirus Relief Fund Allocations to Tribal Governments (June 17, 2020), available at
https://home.treasury.gov/system/files/136/Tribal-Allocation-Methodology-for-Second-Distribution.pdf
(setting the employment-based allocation at 30% and the expenditure-based allocation at 10% of the total amount
reserved for Tribal governments).
1

1

methodology was arbitrary and capricious as used to calculate the disbursement to that Tribe. 5 On
remand, the district court has issued orders finding that all three plaintiff Tribes have established a
likelihood of success on their challenges to the methodology and has enjoined Treasury from disbursing
roughly $21 million of the remaining funds previously allocated to Alaska Native corporations (ANCs).
Treasury has since indicated its intent to reallocate a portion of the remaining CRF funds reserved for
Tribal governments pursuant to a new methodology that takes these decisions into account and to begin
issuing payments promptly thereafter.
Consultation process
In connection with this determination to reconsider the methodology, Treasury conducted consultations
with Tribal governments, including two teleconferences with federally recognized Tribes and one
teleconference with representatives from ANCs. Treasury also appreciates the submissions made by
Tribes and ANCs in response to Treasury’s requests for information. In these consultations, discussed
further below, Tribal governments with zero or low formula area population numbers relative to their
enrollment counts stated that the previous allocation did not provide sufficient funding to meet their
pandemic-related needs. Tribal governments also stated that they were providing substantial assistance to
members outside of their formula areas. ANCs explained the need for funding to provide services to
shareholders not currently served by any federally recognized Tribe.
Basis for Reallocation
In its original decision, Treasury selected IHBG formula area population as the relevant measure of
population because this measure provides several advantages. Formula areas correspond broadly to the
area of a Tribal government’s jurisdiction and other areas to which the Tribal government’s provision of
services and economic influence extend. Adjustments are made to address issues of overlapping
jurisdiction, and the data are easily accessible and regularly maintained by HUD, which allowed for
immediate disbursement. For many Tribes, this data, in conjunction with employment and expenditure
data used to allocate the remaining 40% of the CRF funds reserved for Tribal governments, provided a
reasonable proxy for estimating the increased expenditures for each Tribe. However, Treasury recognizes
that, although IHBG formula area population counts may typically be helpful in estimating a Tribal
government’s increased expenditures, in certain instances they may prove insufficient. That is
particularly true where the Tribe does not have a formula area (e.g., because it does not have a reservation
or other area over which it exercises jurisdiction or is responsible for the provision of services), and
therefore has a formula area population of zero. Even for Tribes that do have formula areas, their
formula-area population may not provide a sufficiently accurate indication of the number of persons for
whom the Tribe provides services more generally, including the many different health and social services
provided during the public health emergency. For example, certain Tribes may also be providing
COVID-related assistance to enrolled members living outside of Tribal lands.
For these reasons, and in recognition of court orders recognizing this potential for under-counting,
Treasury has elected to reconsider its prior decision in part and reallocate a portion of the remaining,
unpaid CRF funds pursuant to a new methodology that accounts for certain scenarios in which IHBG
formula area population counts might prove insufficient. Where there is an especially large disparity
between formula area population and enrollment figures, the difference suggests that the Tribal
government has a need for funding to provide services to a significant number of people who are not
reflected in its formula area population. For these Tribal governments, formula area population is less
likely to be an accurate proxy for increased expenditures. This reallocation will provide additional
payments when there is a substantial disparity between the Tribe’s IHBG formula area population count
and its Tribal enrollment count.
5

See Shawnee Tribe v. Mnuchin, 984 F.3d 94, 102-03 (D.C. Cir. 2021).

2

In order to determine which Tribes may have received a payment that significantly undercounted their
potential expenditures, Treasury will compare the IHGB formula area population against enrollment data
recently collected by the Bureau of Indian Affairs (BIA). If a Tribe did not provide its enrollment data in
response to BIA’s solicitation, Treasury will use the enrollment data provided by the Tribe in response to
Treasury’s April 2020 solicitation or, if the Tribe did not respond to that solicitation, to the enrollment
data available in HUD’s IHBG data. The funds available for reallocation are limited and therefore only
the most substantial disparities can be addressed. As described below, Treasury will calculate a
population-to-enrollment ratio for each federally recognized Tribe and provide additional payments to
those in the 85th percentile and above. Although the precise funding needs of Tribes cannot be
determined with precision, Treasury determined that payments to Tribes above this threshold—including
the three Tribes which, according to a federal court, were likely to prevail on their challenge to the
original methodology—would provide additional assistance to those with the greatest need based on the
circumstances discussed above while still retaining sufficient allocations for ANCs to allow them to
provide assistance to their shareholders.
ANCs are not included in the reallocation calculations below and will not receive additional payments as
a result of the reallocation. As stated above, Treasury is performing the reallocation to address a specific
feature of the use of IHBG data. The concept of enrollment is not applicable to ANCs and, more
specifically, the issues with the use of formula area population discussed above do not apply to ANCs.
Treasury acknowledges that the remaining, unpaid CRF funds reserved for Tribal governments were
previously allocated to ANCs. However, under the new methodology, more than $450 million will still
be allocated to ANCs (including the funds allocated to them under the population-, employment- and
expenditure-based allocations). In their consultation with Treasury, ANCs discussed the services that
they provide to their Native shareholders throughout Alaska, including assistance provided as a result of
the public health emergency. Treasury is mindful of the role that ANCs have in providing critical support
to their members.
The question of ANCs’ eligibility for CRF funding is currently before the Supreme Court. The
methodology below assumes ANCs are eligible for payments from the CRF. Treasury is considering the
methodology by which Treasury would reallocate remaining amounts now allocated to the ANCs in the
event that ANCs are determined to be ineligible for payments from the CRF.
Reallocation Calculation
Treasury will use the following methodology to reallocate funds to certain Tribes.
Treasury will determine the set of Tribes for which Treasury will provide an additional payment by
calculating each Tribe’s ratio of IHBG formula area population to enrollment and then subtracting that
ratio from 1. This is the Tribe’s population-to-enrollment ratio. The top 15 percent of Tribes as ranked
by this ratio (i.e., the 85th percentile) will be eligible for an additional payment.
Treasury will determine the amount each such Tribe will receive by first calculating the amount such
Tribe would have received under an enrollment-based allocation. Treasury will do this by calculating
each Tribe’s pro rata share of the amount of the population-based allocation available for Tribes in the
aggregate, excluding the population-based allocation to ANCs. These payments will be linearly phased
out such that the Tribe with the highest population-to-enrollment ratio will receive the largest percentage
of the difference between the amount it would have received under the enrollment-based allocation and
the IHBG formula area population-based allocation.
Treasury will allocate specific amounts to Tribes in accordance with this methodology and will begin
making payments promptly thereafter.

3

